           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     CONTROLS OVER THE FLEXIPLACE
 PROGRAM AND PERSONALLY IDENTIFIABLE
    INFORMATION AT HEARING OFFICES

       June 2010   A-08-09-19079




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      June 9, 2010                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls over the Flexiplace Program and Personally Identifiable Information at Hearing
           Offices (A-08-09-19079)


           OBJECTIVE
           Our objective was to assess controls over the Flexiplace program (Flexiplace), including
           personally identifiable information (PII), at Office of Disability Adjudication and Review
           (ODAR) hearing offices.

           BACKGROUND
           ODAR’s hearing offices conduct due-process hearings and issue decisions on appealed
           determinations involving Old-Age, Survivors and Disability Insurance and Supplemental
           Security Income. ODAR employs over 1,300 administrative law judges (ALJ) and more
           than 6,000 support staff, which includes attorney advisors, paralegals, and legal
           assistants. Among other duties, ODAR support staff conducts initial case
           screening/preparation and pre-hearing case analysis, develops additional evidence, and
           prepares notices and decisions for claimants.

           Negotiated agreements between the Social Security Administration (SSA) and its
           unions established Flexiplace for ODAR bargaining unit employees.1 Flexiplace allows
           qualified hearing office staff to perform assigned work at a management-approved
           alternate duty station (ADS), which is typically their personal residence. As such,
           employees who participate in Flexiplace take claimants’ case files to their ADS. These
           case files can be in paper form or stored on portable devices, such as compact discs
           (CD) and laptop computers,2 and generally include claimants’ PII—Social Security
           numbers (SSN), names, addresses, earnings information, and medical histories.



           1
            Employees we interviewed were represented by the International Federation of Professional and Technical
           Engineers, National Treasury and Employees Union, and American Federation of Government Employees.
           2
             Hearing office employees we interviewed, other than legal assistants, generally stored claimant case file
           information on CDs.
Page 2 - The Commissioner


According to an ODAR survey, approximately 2,037 (29 percent) of its 6,992 employees
worked Flexiplace at least 1 day per week in Calendar Year 2008. 3

SSA requires that employees who participate in Flexiplace sign, and abide by, the
negotiated Flexiplace Program Agreement. While Flexiplace Program Agreements vary
depending on the union and/or job position, they share certain basic requirements. For
example, SSA requires that Flexiplace employees adhere to all applicable Agency
policies and procedures. As such, SSA holds Flexiplace employees accountable for
safeguarding Agency records and any PII in their possession.

To accomplish our objective, we selected 20 hearing offices. At each office, we
randomly selected and interviewed hearing office employees who participated in
Flexiplace in Calendar Year 2008 as well as group supervisors. We also interviewed
each office’s director and chief ALJ. In total, we interviewed 135 hearing office
employees 4 and 75 managerial staff. 5 The scope of our review involved ODAR
employees working Flexiplace. Therefore, we did not examine ODAR practices for
employees who remove case files to temporary duty sites, such as remote hearing
locations. See Appendix B for additional information on our scope and methodology.

RESULTS OF REVIEW
While SSA had implemented some preventative measures to safeguard PII removed
from its premises, we determined ODAR practices may have exposed claimant data to
unauthorized disclosure. For example, ODAR allowed employees to remove PII stored
on unencrypted 6 CDs. In addition, ODAR employees did not always comply with SSA’s
preventative controls, such as locking claimant PII, when traveling to, or working at, an
ADS. We also determined that ODAR did not always identify the removal, and confirm
the return, of PII. We believe ODAR should identify opportunities to better monitor
employee compliance and strengthen Flexiplace controls, where practicable.

According to most ODAR employees we interviewed, SSA’s Flexiplace program has
had a positive impact on their morale or helped them work more effectively at home
because of fewer interruptions. While we are pleased to report these results, we also
recognize there are inherent risks in the Flexiplace program because some
3
 We obtained these numbers from ODAR’s Calendar Year 2008 Region-Wide Telework Survey and
SSA’s Office of Human Resources, respectively. The 6,992 figure includes both regional and hearing
office employees. We did not determine whether each employee participated in Flexiplace for the full
year.
4
  We randomly selected 136 employees to interview. However, one ALJ declined to participate in our
review.
5
 Managerial staff included chief ALJs, hearing office directors, and group supervisors. Although chief
ALJs can participate in Flexiplace, we treated them as managerial staff because they are responsible for
certain administrative issues concerning ALJs in their offices.
6
 Encryption is one method used to achieve security for data stored electronically. Encryption software
converts data into a secret code so they are not easily understood, except by authorized users.
Page 3 - The Commissioner


vulnerabilities are outside SSA’s control. That is, SSA has limited ability to control or
detect how employees transport, store, or use PII when they work Flexiplace. As such,
the Agency is at risk for unauthorized disclosure or intentional misuse of claimant PII
and must weigh risks against costs and benefits before implementing additional
controls.

ODAR’S PRACTICES DID NOT ADEQUATELY SAFEGUARD CLAIMANT DATA
REMOVED FOR FLEXIPLACE

ODAR’s practices over PII did not properly protect claimant data that Flexiplace
employees removed. For example, ODAR management at 17 (85 percent) of the
20 hearing offices we visited allowed Flexiplace employees to remove electronic PII that
was stored on unencrypted CDs. As long as employees placed claimants’ electronic
data in a locked container, ODAR considered the employees to be taking proper steps
to secure PII. However, we do not believe such controls are sufficient because PII
remains vulnerable to unauthorized disclosure when it is “secured” in such ways.

The Office of Management and Budget (OMB) requires that Federal agencies encrypt
all data on mobile computers/devices, unless the data are not sensitive. 7 To address
OMB’s requirement, SSA implemented a policy that requires employees use
Agency-approved encrypted or password-protected electronic devices when PII is
removed in electronic form. 8 If device encryption is not possible, SSA requires that
employees encrypt or password-protect the electronic files. 9 However, the Agency’s
current encryption process is incompatible with the computer application 10 ODAR uses
for electronic claimant records. In addition, ODAR staff we interviewed told us they
could not password-protect electronic files saved to CDs. While SSA is working on an
encryption solution for ODAR, we believe ODAR needs to adequately safeguard
claimants’ electronic data by requiring that employees save PII to an encrypted and
password-protected laptop—at least until the Agency implements a complete encryption
solution.

We realize storing electronic PII on password-protected laptops will not diminish all risks
in the Flexiplace program. However, three hearing offices we visited recognized the
vulnerability of employees removing PII on unencrypted CDs and no longer allow
employees to remove CDs for Flexiplace.




7
    OMB, M-07-16, Attachment 1 § C., May 22, 2007.
8
 SSA, Safeguarding Personally Identifiable Information (PII) While in Electronic or Physical Transit or
Outside of Secure SSA Space, page 3, February 21, 2008.
9
    Id.
10
  ODAR’s computer application, eView, enables employees who process claimants’ disability cases to
view the information in electronic form.
Page 4 - The Commissioner


FLEXIPLACE EMPLOYEES DID NOT ALWAYS COMPLY WITH AGENCY POLICIES
WHEN REMOVING PII FROM THE WORKPLACE

ODAR employees did not always adequately secure or properly safeguard PII when
working Flexiplace. While SSA has limited capabilities to reduce inherent risks in
Flexiplace, it has implemented policies and directives to minimize the opportunity for
unauthorized disclosure. For example, SSA requires that employees make every
reasonable effort to secure and lock PII and electronic devices during transport and at
their ADS. 11 SSA also requires that employees self-report the disposal of PII at their
ADS to their managers. 12 Managers must then ensure these employees destroyed PII
in an SSA-approved manner. 13

We determined that 5 (about 4 percent) of the 135 hearing office employees interviewed
placed case file information, which contained PII, in an unlocked case or envelope when
traveling. We also learned that employees did not always secure PII while at their ADS.
For instance, employees told us they placed PII in a travel bag, bookcase, or in their
basement instead of locking it in a drawer or cabinet. In fact, 5 (about 4 percent) of the
135 employees we interviewed believed that “locking the house” was adequate
protection. Moreover, we learned that an employee left claimant files containing PII in a
car overnight. Later, he discovered that someone had broken into his garage and
stolen his car. Fortunately, the car and files were recovered, and it appeared there was
no disclosure of sensitive data. Additionally, we learned that four employees shredded
documents 14 or CDs that contained PII at their ADS, but their managers had not
approved the disposals.

We recognize that SSA’s PII policies and procedures can only be effective if employees
strictly adhere to them. Further, we believe it is SSA’s responsibility to protect
claimants’ PII, to the maximum extent possible, from unauthorized disclosure.
Accordingly, SSA should reemphasize to its employees the importance of
understanding and following all PII policies and directives. In addition, SSA should take
disciplinary action, such as suspending Flexiplace, for those employees who do not
comply with its PII requirements.




11
 SSA, Safeguarding Personally Identifiable Information (PII) While in Electronic or Physical Transit or
Outside of Secure SSA Space, Supra at page 2.
12
     Id.
13
     SSA, Safeguarding Personally Identifiable Information (PII), pages 1, 2, and 5, February 14, 2008.
14
  The employees told us these documents were not originals—that is, the employees created the
documents specifically for Flexiplace work.
Page 5 - The Commissioner


ODAR COULD STRENGTHEN CONTROLS FOR TRACKING PII REMOVED FOR
FLEXIPLACE

While Agency policy requires that management closely monitor employee removal of PII
from its premises, 15 we do not believe ODAR’s practice always confirmed Flexiplace
employees’ removal and return of PII. SSA requires that management maintain a
tracking log to identify PII that employees take to an ADS. 16 ODAR’s logs generally
include the employee’s name, claimant’s name and SSN, reason for the PII removal,
and dates removed and returned. However, most hearing offices we visited did not
track the type of medium containing PII that employees removed. In addition, instead of
physically confirming that employees returned PII—that is, their CDs, laptops, or paper
files—ODAR managers often relied on employees’ completed log sheets or case status
in its Case Processing and Management System. 17

We believe ODAR has the opportunity to strengthen its controls for tracking PII. In fact,
we determined that one hearing office’s group supervisor accounted for electronic PII
his employees removed. The group supervisor told us he personally provided CDs to
Flexiplace employees and required that they bring the CDs to him upon their return to
work.

We recommend that SSA consider establishing additional procedures to identify and
account for media that ODAR employees take to their ADS. For example, ODAR’s
tracking log could include the type of medium removed. In addition, ODAR managers
could verify that Flexiplace employees physically returned the medium containing the
PII.

SSA SHOULD SEEK OPPORTUNITIES TO BETTER MONITOR ODAR EMPLOYEES’
COMPLIANCE WITH PII REQUIREMENTS

We believe SSA should improve monitoring of ODAR employees’ compliance with
Flexiplace requirements and seek opportunities to reduce risks of unauthorized
disclosure of PII. For example, SSA could require that ODAR periodically verify that
Flexiplace employees place claimant files in a locked container before they travel to an
ADS. SSA could also determine whether deterrent controls, such as ADS inspections, 18
would enhance ODAR employees’ compliance. Although inspecting ADSs cannot
assure SSA that ODAR employees will properly secure claimant PII when at their ADS,
it will confirm their ADS is equipped with a lockable device. During our review, we found
that 11 (55 percent) of the 20 hearing offices we visited inspected employees’ ADSs.

15
     SSA, Information Systems Security Handbook, Chapter 22, § 22.4.
16
 SSA, Safeguarding Personally Identifiable Information (PII) While in Electronic or Physical Transit or
Outside of Secure SSA Space, Supra at page 2.
17
   ODAR’s Case Processing and Management System is a Web-based system that allows management
to determine, among other things, the current status of each case.
18
     ODAR employees’ Flexiplace Program Agreements allow management to conduct ADS inspections.
Page 6 - The Commissioner


Employee transportation and storage of claimant data for Flexiplace presents unique
challenges—and additional controls will not diminish all risks related to unauthorized
disclosure or intentional misuse of claimant PII. However, we believe the Agency
should seek opportunities to reduce risks and implement compensating controls. In
addition, ODAR should take disciplinary action, such as suspending Flexiplace, for
those employees who do not comply with SSA’s PII requirements.

CONCLUSION AND RECOMMENDATIONS
SSA faces a unique challenge in safeguarding and monitoring sensitive data ODAR
employees remove while working Flexiplace. Although SSA implemented certain
policies and directives to protect claimant PII removed from its premises, these controls
can only be effective if they are adequate and employees comply. We recognize SSA’s
efforts cannot eliminate all risks. Nonetheless, we believe SSA has a stewardship
responsibility to minimize security risks inherent in the Flexiplace program, when
feasible, and ensure employee compliance with all PII policies and directives.

Accordingly, we recommend that SSA:

1. Require that ODAR employees store electronic PII on an encrypted and
   password-protected laptop when working Flexiplace, until such time as a CD
   encryption solution for ODAR is developed.

2. Reemphasize to ODAR employees the importance of complying with all Agency PII
   policies and directives.

3. Consider implementing additional procedures to account for the removal and return
   of PII.

4. Improve monitoring of ODAR employees’ compliance with Flexiplace requirements.
   In addition, ODAR should take disciplinary action, such as suspending Flexiplace,
   for those employees who do not comply.

AGENCY COMMENTS
SSA generally agreed with our recommendations. The Agency’s comments are
included in Appendix C.
Page 7 - The Commissioner


OTHER MATTERS
Hearing Office Management Needs to Improve Its Maintenance of SSA’s
7-B Employee Record Extension Files

We determined that hearing office management did not always comply with Agency
policy regarding SSA’s 7-B Employee Record Extension File (7-B File) for staff. SSA
policy requires that supervisors maintain a 7-B File for each employee. 19 Employee
7-B Files should include approved Flexiplace Requests, performance appraisals,20 and
employee-signed annual acknowledgment statements on Systems Sanctions and
Safeguarding PII. 21

During our review, hearing office management could not locate one employee’s
7-B File, while others’ 7-B Files were incomplete. We also identified 66 incidences
where management either did not retain or did not ensure that employees’ current
Systems Sanctions and Safeguarding PII acknowledgment statements were in their
respective 7-B Files. 22 Additionally, three employees’ 7-B Files did not contain their
performance appraisals. Moreover, hearing office management did not always retain
employees’ Flexiplace Agreements or their Agreements were incomplete.

We encourage SSA to take steps to ensure that management properly maintains
employees’ 7-B Files.

Hearing Office Managers Were Unclear on Retention Period for PII Logs

It appears that hearing office managers were unclear on how long they should retain PII
logs. Policy requires that management retain PII logs for 2 years.23 However, in the




19
     SSA, Personnel Policy Manual, Chapter S293_1, § 4.1.2.
20
     SSA, Personnel Policy Manual, Chapter S293_4, Exhibit 1.
21
  The two documents are SSA’s Agency Policy for Systems Access, Table of Penalties for Violations and
Acknowledgement Statement by Employees and Annual Reminder on Safeguarding Personally
Identifiable Information (PII) for SSA Employees. SSA, Security Reminders for Managers, May 2009,
page 3.
22
  Of the 66 incidences identified, 43 pertained to the Safeguarding PII document and 23 concerned the
Systems Sanctions document. Some employees’ 7-B File did not contain both documents, while others’
may have lacked only one of these documents.
23
  SSA, Memorandum, PII Log Disposal – INFORMATION, August 19, 2008, and SSA, Information
Systems Security Handbook, Chapter 19, § 19.3 D.
Page 8 - The Commissioner


event of PII loss, policy further instructs management to store the logs and information
pertaining to the loss, such as the incident report and the Change, Asset, and Problem
Reporting System number, 24 for 7 years. 25

Management at 3 (15 percent) of the 20 hearing offices we visited told us they stored
PII logs fewer than 2 years. In fact, one hearing office director told us his office did not
maintain a log any longer than what is needed to confirm the file has been returned. He
further stated that the office did not maintain PII logs for ALJs.

To ensure the Agency can properly track PII that Flexiplace employees remove, we
believe it is important that management maintain PII tracking logs on all who participate
in Flexiplace for the time period required. Therefore, we encourage SSA to clarify the
retention period for PII logs with hearing office managers.




                                                        Patrick P. O’Carroll, Jr.




24
  SSA’s Network Customer Service Center assigns a Change, Asset, and Problem Reporting System
number when management or staff reports a PII loss. If additional or updated information on the incident
becomes available, managers provide the Network Customer Service Center with this number to update
the particular case.
25
     Id., and SSA, Information Systems Security Handbook, Appendix V.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
7-B File     7-B Employee Record Extension File
ADS          Alternate Duty Station
ALJ          Administrative Law Judge
CD           Compact Disc
Flexiplace   Flexiplace Program
ODAR         Office of Disability Adjudication and Review
OIG          Office of the Inspector General
OMB          Office of Management and Budget
PII          Personally Identifiable Information
SSA          Social Security Administration
SSN          Social Security Number
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:
•     Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
      and procedures pertaining to the Flexiplace program (Flexiplace) and safeguarding
      personally identifiable information (PII). 1
•     Identified the two hearing offices in each region with the highest percentage of
      Flexiplace participation in Calendar Year 2008 for our site visits. 2 The hearing
      offices we visited are shown in Table B-1.
                        Table B-1: Hearing Offices Visited by Region

                            Region                  Hearing Office Location
                  1                       New Haven, Connecticut
                                I
                  2                       Portland, Maine
                  3                       Voorhees, New Jersey
                                II
                  4                       Newark, New Jersey
                  5                       Harrisburg, Pennsylvania
                                III
                  6                       Seven Fields, Pennsylvania
                  7                       Birmingham, Alabama
                                IV
                  8                       Paducah, Kentucky
                  9                       Detroit, Michigan
                                V
                 10                       Oak Park, Michigan
                 11                       Fort Worth, Texas
                                VI
                 12                       Dallas North, Texas
                 13                       Creve Coeur, Missouri
                               VII
                 14                       Kansas City, Missouri
                 15                       Fargo, North Dakota
                               VIII
                 16                       Billings, Montana
                 17                       Stockton, California
                                IX
                 18                       Phoenix, Arizona
                 19                       Seattle, Washington
                                X
                 20                       Spokane, Washington




1
 The scope of our review was limited to Flexiplace. As such, we did not examine the Office of Disability
Adjudication and Review’s (ODAR) controls in place or employees’ PII practices at temporary duty sites,
such as remote hearing locations.
2
    We obtained this information from SSA’s ODAR and Office of Human Resources.


                                                   B-1
•     Randomly selected two employees per position to interview, if there were at least
      two employees in that position who participated in Flexiplace. We also randomly
      selected two group supervisors to interview, if there were at least two in the position.
      We also interviewed hearing office directors and chief administrative law judges
      (ALJ), provided there was one. 3 Table B-2 provides the number of hearing office
      employees and management we interviewed. One ALJ declined to participate in our
      review.
                         Table B-2: Employees Interviewed Per Position
                                                            Number of Employees
                                 Position                       Interviewed
                       ALJ                                             33
                       Attorney Advisor                                35
                       Paralegal                                       29
                       Legal Assistant                                 38
                       Total Employees                               135
                       Group Supervisor                                36
                       Hearing Office Chief ALJ                        19
                       Hearing Office Director                         20
                       Total Management                                75
                       GRAND TOTAL                                   210

•     For each employee interviewed, we examined his/her SSA 7-B Employee Record
      Extension File to identify whether management retained employees’ annual
      acknowledgment statements 4 and Flexiplace documents.

Our review of internal controls was limited to SSA’s policies and directives for protecting
PII and documenting Flexiplace requests and approvals. We performed our audit at the
Office of Audit in Birmingham, Alabama, and selected hearing offices. The data were
sufficiently reliable to meet our objective.

The SSA entity audited was the Office of the Chief ALJ under the Deputy Commissioner
for ODAR. We conducted this performance audit from May through December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.



3
    One hearing office did not have an acting chief ALJ at the time of our review.
4
  The statements are SSA’s Annual Reminder on Safeguarding Personally Identifiable Information (PII)
for SSA Employees and Agency Policy for Systems Access, Table of Penalties for Violations and
Acknowledgement Statement by Employees.


                                                      B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      May 24, 2010                                                           Refer To:

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Controls Over the Flexiplace Program and
           Personally Identifiable Information at Hearing Offices” (A-08-09-19079)


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CONTROLS OVER THE FLEXIPLACE PROGRAM AND PERSONALLY
IDENTIFIABLE INFORMATION (PII) AT HEARING OFFICES” (A-08-09-19079)

We generally agree with the reported findings and recommendations.

Recently, the Office of Disability Adjudication and Review (ODAR) launched a multi-pronged
strategy on PII loss prevention. Specifically, ODAR’s Deputy Commissioner personally issued
clear PII loss prevention guidance to all ODAR employees and conducted national
teleconferences, including calls to over 570 Information Technology (IT) staff and managers, all
Regional Chief Administrative Law Judges (ALJ), and an all-manager call with over
650 managers. ODAR also kicked-off a national PII loss prevention workgroup to quickly
review and revise our loss prevention procedures and policies and to establish standard penalties
for employee and contractor PII loss.

Additionally, ODAR plans to reemphasize the importance of management accountability. For
example, ODAR is developing and will soon issue a certification form for all managers to sign,
acknowledging that: 1) all personal drives have been examined for PII and that extraneous
information has been purged, 2) all employees have a signed and current copy of the Annual
Reminder on Safeguarding Personally Identifiable Information (PII) for SSA Employees on file,
and, 3) when applicable, all employees have current, signed flexiplace agreements in their
7B file. Also, ODAR’s Systems Security Branch, in conjunction with the agency’s Office of
Human Resources, is developing a stronger PII element for managers’ performance plans. This
stronger performance element will hold mangers more accountable for protecting PII.

ODAR’s managers also regularly exchange PII protection information and best practices. For
example, ODAR’s Component Security Officer (CSO) chairs a monthly ODAR Security
Roundtable meeting which allows Headquarters Security Specialists, the Division of Electronic
Services, the Division of Information Technology Integration, Regional Supervisory Information
Technology Specialists, and Regional Systems Administrators to exchange information that will
enable them to better protect our claimants’ PII. Actions from these meetings often include
communicating information to regional managers and/or employees.

Finally, ODAR’s Systems Security Branch and CSO actively participate in a variety of agency-
wide initiatives with the Chief Information Officer’s (CIO) PII staff, which include
communicating SSA policy to all agency employees. Current initiatives include mandatory PII
awareness training and a poster campaign to promote PII awareness.

Our responses to the specific recommendations are as follows:




                                               C-2
Recommendation 1

We recommend that SSA require that ODAR employees store electronic PII on an encrypted and
password-protected laptop when working flexiplace, until such time as a compact disc (CD)
encryption solution for ODAR is developed.

Comment

We agree with the first part of your recommendation concerning laptops. We now have an
adequate stock of agency-issued, encrypted, password-protected laptops available to employees
working flexiplace, and we transfer electronic PII to those laptops for use at employees’
alternative duty stations (ADS). As for the second part of your recommendation, we no longer
need to develop a “CD encryption solution.” We store electronic PII only on approved laptops
and no longer remove CDs from the office for flexiplace purposes.

We are taking actions along these lines to protect PII and to phase in a new process.
Specifically, we are:

    • Reissuing PII policy guidance to reiterate our existing policy that all employees
      participating in flexiplace must transport electronic PII between the office and their ADS
      on agency-issued, encrypted, and password-protected laptops.

    • Implementing the portable workstation process (PWP) which allows our employees to
      use their approved laptops as their in-office workstations while connected to our network.
      While in the office, employees who have PWP download the files they require for
      flexiplace directly from the network to their laptops. Employees then use those laptops
      during flexiplace and upload the work that they performed on flexiplace to the network
      upon their return to the office.

    • We have started issuing new laptops with the PWP software, and some employees are
      using PWP for flexiplace. Until we deploy PWP in all ODAR offices, flexiplace
      employees who do not have PWP will follow a work-around process and transfer
      claimants’ electronic files to agency-issued, encrypted, and password-protected Universal
      Serial Bus (USB) flash drives. While still in the office, they will then transfer the files
      from the flash drive to their approved encrypted, password-protected laptops. We will
      secure the USB flash drives in our offices, and they will not leave the premises.

Recommendation 2

We recommend that SSA reemphasize to ODAR employees the importance of complying with
all Agency PII policies and directives.




                                               C-3
Comment

We agree and are taking a number of steps on this front, starting with management
accountability. We are developing and will soon issue a certification form that all managers
must sign, wherein they acknowledge that:

   •   All personal drives have been examined for PII and extraneous information has been
       purged;
   •   All employees have a signed, current copy of the Annual Reminder on Safeguarding
       Personally Identifiable Information (PII) for SSA Employees in their 7-B files, and
   •   Where applicable, all employees have current, signed flexiplace agreements in their
       7-B files.

Also, ODAR is developing a stronger PII element for managers’ performance plans.

In 2007, we implemented the Annual Reminder on Safeguarding Personally Identifiable
Information (PII) for SSA Employees. We are reemphasizing that employees review and
understand that document as well as the Agency Policy for Systems Access. In addition, ODAR’s
Systems Security Branch, CSO, and/or Regional Security IT Specialists provide PII security
awareness training to all new ODAR employees and managers to ensure that they understand
their responsibilities for protecting PII.

We are also taking other actions to raise awareness and protect PII. Specifically, ODAR’s
Deputy Commissioner personally issued strict PII loss prevention guidance to all ODAR
employees. He conducted national teleconferences with more than 570 IT employees and
managers and all Regional Chief ALJs. He also held an “all-managers” call with over
650 participants. In addition, ODAR is leading an effort on PII loss prevention to review and
revise its loss prevention procedures and policies and to establish standard penalties for
employees who lose PII or fail to adhere to agency PII protection policies.

ODAR’s managers also regularly exchange PII protection information and best practices. For
example, ODAR’s CSO chairs a monthly “ODAR Security Roundtable” where key players
exchange information to promote better protection of PII; they then communicate this
information to regional managers and employees. ODAR also works with other agency
components on PII issues. For example, it collaborates with the CIO on a variety of initiatives to
raise PII awareness among all agency employees. This includes an initiative for mandatory PII
training and a poster campaign to promote PII protection.

Recommendation 3

We recommend that SSA consider implementing additional procedures to account for the
removal and return of PII.




                                               C-4
Comment

We agree and are improving our controls over the removal and return of PII. We have
reemphasized to ODAR managers their responsibilities in this area and have instructed them to
modify their logs to include all types of media. This includes paper files (paper is still used to a
great extent) and laptops containing PII. As noted under recommendation one, we no longer
remove from the office CDs, flash drives, or other types of electronic media for flexiplace
purposes.

We are making further strides in this area. For example, ODAR’s Division of Security meets
regularly to explore other options for improvements and in coming months will be taking other
actions such as issuing new logging procedures. We recognize that procedures must be followed
consistently, and ODAR is developing business processes to promote that consistency.

Recommendation 4

We recommend that SSA improve monitoring of ODAR employees’ compliance with flexiplace
requirements. In addition, ODAR should take disciplinary action, such as suspending flexiplace,
for those employees who do not comply.

Comment

We agree and have directed our managers to focus their attention on this important task. We are
also stressing personal accountability to the employees themselves who participate in flexiplace.
In addition, while we already are spot checking flexiplace ADSs, we will examine and revise
procedures and adopt a more systematic approach for those efforts. This will include spot checks
of employees transporting PII and on-site reviews of ADSs.

As for the disciplinary action you suggest, we already progressively discipline (reprimand,
suspension, and removal) employees who do not comply with policies for safeguarding PII. We
are developing standard penalties and guidance to more effectively utilize that option where
situations warrant. Also, as we note in our comments for recommendation two, we have PII loss
prevention managers meetings where we review policies and consider disciplinary actions for
situations where an employee looses PII.

OTHER MATTERS

Hearing Office Management Needs to Improve Its Maintenance of SSA’s 7-B Employee
Record Extension Files

Comment

We agree. We are reissuing guidelines to ODAR managers and directing them to review
employees’ 7-B files and certify that each contains the appropriate material. We will complete
this by June 30, 2010.




                                                C-5
Hearing Office Managers Were Unclear on Retention Period for PII Logs

Comment

The ODAR CSO is working with hearing office representatives to review the entire PII logging
process, including the procedures for logging PII for flexiplace, PII logs for ALJs, and log
retention. Once complete, we will issue updated guidelines to all affected ODAR employees and
managers.




                                            C-6
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director

   Theresa Roberts, Audit Manager

Acknowledgments

In addition to those named above:

   Janet Matlock, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-09-19079.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
